INVESTIGATIVE
REPORT

National Oceanic
and Atmospheric
Administration

Hurricane Sandy Relief Funding
for the National Estuarine
Research Reserve System
(NERRS)

FOR PUBLIC RELEASE
REPORT NUMBER 13-0963
MAY 19, 2014


U.S. Department of Commerce
Office of Inspector General
Office of Investigations
Contents
Chapter 1: Background ...................................................................................................................................1
   Executive Summary ..................................................................................................................................1
        Hurricane Sandy’s Impact .......................................................................................................................2
        Legislative Response to Hurricane Sandy ...........................................................................................2
        Allegation Regarding Potential Misuse of Hurricane Sandy Funding .............................................4
   I.      Scope and Methodology ......................................................................................................................4
   II. Organization of the Report ................................................................................................................5
Chapter 2: Overview .......................................................................................................................................6
 I. NERRS: Programmatic Overview .....................................................................................................6
   II. Legal and Regulatory Overview .........................................................................................................7
Chapter 3: Allegations .....................................................................................................................................9
 1. A NERRS facility submitted a grant application to NOAA that fraudulently requested
     funds under the Disaster Relief Appropriations Act to replace assets that were not
     “damaged” by Hurricane Sandy. ........................................................................................................9
        Facts.............................................................................................................................................................9
        OIG Analysis ........................................................................................................................................... 10
   II. NOAA provided guidance to NERRS facilities during the grant application process that
       expanded the plain language of the Disaster Relief Appropriations Act and subsequently
       approved funding for assets that did not meet the eligibility criteria for the Hurricane
       Sandy funding established by the Act. ........................................................................................... 12
        Facts.......................................................................................................................................................... 12
        OIG Analysis ........................................................................................................................................... 18
Chapter 4: Conclusions and Recommendations..................................................................................... 20
 I. Findings................................................................................................................................................. 20
   II. Conclusions ......................................................................................................................................... 20
   III. Recommendations ............................................................................................................................. 21
Appendix A: National Ocean Service Spend Plan for $7,000,000 Designated for Ocean
Observing and Coastal Monitoring Asset Repair and Replacement .................................................. 22
Appendix B: Justification for Replacement SWMP Equipment in NERRS Facilities’ Applications
for Hurricane Sandy Funding....................................................................................................................... 23
Appendix C: Questioned Costs for Replacement SWMP Equipment ............................................... 27
Appendix D: Memorandum from OIG AIGI to NOAA Acquisitions and Grants Office ............. 33
Appendix E: Table of Abbreviations .......................................................................................................... 34
Appendix F: Contributors to the Report ................................................................................................. 35




REPORT #13-0963
Chapter 1: Background
Executive Summary

In the summer of 2013, the Office of Inspector General (OIG) received information from a
whistleblower alleging that a National Oceanic and Atmospheric Administration (NOAA)
grantee improperly applied for and received Hurricane Sandy funds under the Disaster Relief
Appropriations Act and Sandy Recovery Improvement Act (the “Act”), which was generally
passed to benefit the victims of Hurricane Sandy or remediate the storm’s damage. Specifically,
the whistleblower claimed that a research facility that is part of the National Estuarine Research
Reserve System (NERRS) requested these federal relief funds to replace assets that were not
actually damaged by Hurricane Sandy. Another key witness claimed that the assets this NERRS
facility sought to replace with the disaster relief funds worked properly before, during and after
Hurricane Sandy. This key witness expressed concerns to NOAA officials about the propriety
of claiming that these assets were “damaged” and thereby eligible for the disaster relief funding.
After receiving these allegations, OIG initiated an investigation into the application for and
receipt of approximately $1 million in federal funds by nine research facilities that are part of
the NERRS.

OIG’s investigation found that NOAA, in response to concerns raised by NERRS facilities (i.e.,
prospective grant recipients) regarding the use of disaster relief funds to replace aging assets
that were not actually “damaged” by the storm, advised the NERRS facilities that research
equipment that was “compromised” by the storm was eligible for disaster relief funding.
NOAA’s direction to the NERRS facilities expanded the Act’s plain language requirement that
equipment be “damaged” in order to receive disaster relief funds. Moreover, NOAA allowed
the NERRS facilities to receive Hurricane Sandy funding through a process requiring no
competition and by simply stating that an asset was “damaged” or “compromised” without
requiring any additional documentation or specific proof to support the claim for funding. OIG
concluded that NOAA’s guidance to the funding applicants and subsequent approval of funding
applications resulted in questioned costs of approximately $550,200 – more than half of the
approximately $1 million dollars of funds disbursed – for items that may not have been eligible
for funding based on the plain language of the Act passed by Congress. By using Hurricane
Sandy funds to replace assets that experienced wear and tear and for which no claims of
damage were made, NOAA defeated the purpose of the Act and deprived itself and potentially
others from using the funds for purposes that would more directly benefit the victims of
Hurricane Sandy or remediate the storm’s damage.

As a result of the investigation, OIG made several recommendations including a
recommendation for NOAA to conduct an analysis and seek the recovery of any improperly
awarded disaster relief funds.




REPORT #13-0963                                                                                1
Hurricane Sandy’s Impact

Hurricane Sandy made landfall in southern New Jersey on the evening of October 29, 2012 and
impacted more than a dozen states. 1 The storm included “heavy rain, strong winds, and record
storm surges.” 2 “A dangerous nor’easter followed 9 days later and caused additional damage
and undermined the recovery effort.” 3 “During Sandy’s immediate aftermath, more than 23,000
people sought refuge in temporary shelters, and more than 8.5 million customers lost power. 4
The storm flooded numerous roads and tunnels, blocked transportation corridors, and
deposited extensive debris along the coastline.” 5 “Over 1,600 stores were closed, and fuel
distribution was severely disrupted, further complicating the recovery effort. 6 New York and
New Jersey – two of the Nation’s most populous states – were especially hit hard by these
storms.” 7

Legislative Response to Hurricane Sandy

To aid the storm recovery effort, Congress enacted the Disaster Relief Appropriations Act and
Sandy Recovery Improvement Act (the “Act”) on January 29, 2013. 8 President Obama signed
the Act into law on January 29, 2013. 9

The Act produced varied reactions from members of Congress. Some members questioned
seemingly extraneous items in the Act along with the amount of funding being appropriated by
the Act. 10 Other members focused on the need for immediate assistance and protection to
those affected by the disaster. 11

The Act “provided approximately $50 billion in supplemental appropriations, before
sequestration, to 61 programs at 19 federal agencies for expenses related to the consequences
of Hurricane Sandy.” 12 $290 million was allocated to NOAA and $7 million of this amount was



1
  U.S. Federal Emergency Management Agency (FEMA), Hurricane Sandy: Timeline, http://www.fema.gov/hurricane-
sandy-timeline (last visited Apr. 1, 2014) [hereinafter FEMA website: Hurricane Sandy: Timeline].
2
  Id.
3
  Exec. Order 13632 – Establishing the Hurricane Sandy Rebuilding Task Force (Dec. 7, 2012) [hereinafter Exec.
Order 13632].
4
  FEMA website: Hurricane Sandy: Timeline, supra.
5
  Id.
6
  Exec. Order 13632, supra.
7
  Id.
8
  Disaster Relief Appropriations Act and Sandy Recovery Improvement Act, Pub. L. No. 113-2, H.R. 152, 127 Stat.
4 [hereinafter Disaster Relief Appropriations Act].
9
  Lib. of Cong., Bill Summary & Status, 113th Cong. H.R. 152, all Information available at http://thomas.loc.gov.
10
   See, e.g. 159 Cong. Rec. H119 [hereinafter 159 Cong. Rec.] (daily ed. Jan. 15, 2013) (statement of Rep.
Hensarling); U.S. Sen. Dan Coats, Coats Statement on Hurricane Sandy Disaster Relief Funding (Jan. 28, 2013),
http://www.coats.senate.gov/newsroom/press/release/coats-statement-on-hurricane-sandy-disaster-relief-funding
(last visited Apr. 3, 2014).
11
   See 159 Cong. Rec., supra, at S317 (daily ed. Jan. 28, 2013) (statement of Sen. Gillibrand); id. at E1590 (daily ed.
Oct. 29, 2013) (statement of Rep. King).
12
   See U.S. Gov’t Accountability Office, Report to Cong. Comms., HURRICANE SANDY RELIEF, Improved Guidance on
Designing Internal Control Plans Could Enhance Oversight of Disaster Funding, AO-GAO-14-58 1 (Nov. 2013).


REPORT #13-0963                                                                                                     2
designated “to repair and replace ocean observing and coastal monitoring assets damaged by
Hurricane Sandy” (“Hurricane Sandy funding”). 13 The National Ocean Service (NOS), a
subcomponent of NOAA, designated approximately $1 million of these funds to nine East
Coast facilities that are part of the NERRS. 14 The Hurricane Sandy funding was awarded to the
NERRS facilities through non-competitive grants. 15


The table below shows how the funding was distributed to each of the nine NERRS facilities. 16


 Table 1: Disaster Relief Appropriations Act Awarded Funding to NERRS Facilities
     NERRS Facility                     Funding Awarded                              Funding Obligation Date
Chesapeake Bay, MD                             $22,775                                   September 30, 2013
Chesapeake Bay, VA                             $30,118                                   September 25, 2013
Delaware                                       $53,811                                   September 26, 2013
Great Bay, NH                                  $58,720                                   September 27, 2013
Hudson River, NY                              $160,806                                    October 17, 2013
Jacques Cousteau, NJ                          $496,710                                    October 22, 2013
Narragansett Bay, RI                           $63,550                                   September 26, 2013
Waquoit Bay, MA                                $75,840                                    October 22, 2013
Wells, ME                                      $72,833                                   September 24, 2013
TOTAL                                      $1,035,163
Source: https://grantsonline.rdc.noaa.gov (accessed March 5, 2014).




13
   Disaster Relief Appropriations Act, supra, at Title 10, Ch. 2. The remainder of the funds were allocated to five other
line items: (1) $50 million for mapping, charting, geodesy services and marine debris surveys for coastal States
impacted by Hurricane Sandy; (2) $3 million to provide technical assistance to support State assessments of coastal
impacts of Hurricane Sandy; (3) $25 million to improve weather forecasting and hurricane intensity forecasting
capabilities, to include data assimilation from ocean observing platforms and satellites; (4) $50 million for
laboratories and cooperative institutes research activities associated with sustained observations weather research
programs, and ocean and coastal research; and (5) $5 million for necessary expenses related to fishery disasters
during calendar year 2012 that were declared by the Secretary of Commerce as a direct result of impacts from
Hurricane Sandy.
14
   NOS Disaster Relief Act Spending Plan, provided to OIG by NOAA Resource Management Division, on March
28, 2014 (on file with OIG) [hereinafter Disaster Relief Act Spending Plan]. See Appendix A for the complete NOS
Disaster Relief Act Spending Plan, which details how NOS distributed the $7 million among several programs. The
propriety of the disposition of the remainder of the $7 million in funding received by NOAA that was not
distributed to the NERRS facilities is beyond the scope of this report.
15
   See Memorandum from NOAA (Aug. 30, 2013) (on file with OIG) (discussing non-competitive justification for
Hurricane Sandy funding) [hereinafter Memorandum on Non-competitive Justification].
16
   Please note not all of the funding is in question.


REPORT #13-0963                                                                                                       3
Allegation Regarding Potential Misuse of                              The Disaster Relief Appropriations
Hurricane Sandy Funding                                               Act of 2013 provided funds
                                                                       to NOAA “to repair and replace
On June 18, 2013, OIG was provided with information
                                                                      ocean observing and coastal
from a whistleblower, alleging that a NERRS facility had
requested Hurricane Sandy funding under the Act to                    monitoring assets damaged by
replace assets that were not actually damaged by the                  Hurricane Sandy.”
storm. 17 The whistleblower’s information was referred
to OIG by the Government Accountability Office’s Fraudnet, a hotline operated to receive
allegations from federal employees and members of the public. 18

OIG’s objective in conducting this investigation was to determine whether the NERRS facility in
question made a fraudulent request for Hurricane Sandy funding under the Act. Furthermore,
OIG sought to determine whether NOAA appropriately awarded the Hurricane Sandy funding
to the nine NERRS facilities.

I.      Scope and Methodology
OIG interviewed nine individuals associated with the funding awarded to the NERRS facilities
under the Act. The individuals who were interviewed included the whistleblower and the
NOAA officials responsible for reviewing and approving the grant awards to the NERRS
facilities. OIG also spoke with an employee of the NERRS facility in question who possesses
detailed knowledge of the equipment replaced with the Hurricane Sandy funding. In addition,
OIG reviewed the documents associated with the announcement and implementation of the
Hurricane Sandy funding, application materials submitted by the nine NERRS facilities, and e-
mail communications from NOAA officials and NERRS employees regarding the application and
funding process.

The whistleblower indicated that a NERRS facility, in applying for Hurricane Sandy funding, used
the term “compromised” rather than the term “damaged” to describe the assets that it
proposed to replace. 19 The whistleblower thought this did not meet the standard for
replacement established by the Act, which specifically provided funding to repair and replace
“damaged” assets. 20 In addition, the whistleblower claimed that the assets proposed for
replacement operated properly following Hurricane Sandy, and the data produced by the assets
was not interrupted before, during, or after Hurricane Sandy. 21

The whistleblower’s allegations led OIG to review the applications of the other eight NERRS
facilities that requested Hurricane Sandy funding under the Act. OIG obtained and reviewed the




17
   Letter from GAO Fraudnet Operations, to OIG (June 18, 2013) (on file with OIG).
18
   See id.
19
   OIG Investigative Record Form (“IRF”): Interview with Whistleblower, 2 [hereinafter OIG IRF: Whistleblower
Interview].
20
   Id.
21
   Id. at 4.


REPORT #13-0963                                                                                                 4
documents submitted by the nine NERRS facilities in support of their applications for grant
funds.

II.     Organization of the Report
Chapter 2 of this report provides an overview of the NERRS research program’s organization
and focus, and outlines the laws and regulations applicable to this matter. Chapter 3 addresses
the allegations presented by the whistleblower. Chapter 3 also details why the NERRS facilities
considered “compromised” assets to be eligible for funding under the Act and why NOAA
approved these applications. Chapter 4 presents OIG’s findings, conclusions and
recommendations as a result of this investigation.




REPORT #13-0963                                                                               5
Chapter 2: Overview
I.       NERRS: Programmatic Overview
The NERRS program is an operation within NOAA, a component of the U.S. Department of
Commerce (DOC). 22 The Estuarine Reserves Division (ERD) of the Office of Ocean and
Coastal Resource Management (OCRM), National Ocean Service (NOS), administers the
NERRS and “is also the home of a number of services that provide technical assistance and
support to the NERRS.” 23 According to background information provided by NOAA, the
NERRS “is a partnership program between NOAA and coastal states to study and protect vital
coastal and estuarine resources.” 24 It is made up of “a network of 28 areas representing
different biogeographic regions of the United States that are protected for long-term research,
water-quality monitoring, education, and coastal stewardship.” 25 “NOAA provides funding,
national guidance, and technical assistance” to the program. 26 Within NERRS, “each reserve is
managed on a daily basis by a lead state agency or university, with input from local partners.” 27

The part of the NERRS research program designated by NOAA for funding under the Act is
the System-Wide Monitoring Program (SWMP). 28 The SWMP is “an integral part of the
system’s research program,” and it “provides researchers, resource managers, educators, and
other coastal decision makers with standardized, quantitative measures to determine how
reserve conditions are changing in both the short-term and the long-term.” 29 The NERRS
established the SWMP in 1995 and describes the program as follows:

         [The SWMP has] a primary mission to develop quantitative measurements of short-term
         variability and long-term changes in the water quality, biological systems, and land-
         use/land-cover characteristics of estuaries and estuarine ecosystems for the purposes of
         informing effective coastal zone management. . . SWMP data help establish the NERRS
         as a system of national reference sites, as well as a network of sentinel sites for
         detecting and understanding the effects of climate change in coastal regions. 30

In informational material, NOAA and NERRS provide the following details on the SWMP:

         SWMP focuses on three related broad environmental measures: (1) abiotic monitoring,
         including atmospheric conditions, nutrients and contaminants, and physical water quality
         factors such as salinity, dissolved oxygen, and tidal range; (2) biological monitoring,
         including biodiversity, habitat and population characteristics; and (3) watershed and land



22
   NERRS, Key Documents and Partners, http://www.nerrs.noaa.gov/BGDefault.aspx?ID=17 (last visited Apr. 1, 2014).
23
   Id.
24
   NERRS, Background, http://www.nerrs.noaa.gov/Background.aspx (last visited Apr. 1, 2014).
25
   National Ocean Service, What is NERRS?, http://oceanservice.noaa.gov/facts/nerrs.html (last visited Apr. 1, 2014).
26
   Id.
27
   Id.
28
   See Appendix A.
29
   NERRS, SWMP, http://www.nerrs.noaa.gov/BGDefault.aspx?ID=18 (last visited Apr. 1, 2014).
30
   Id.


REPORT #13-0963                                                                                                   6
         use classification, including changes over time in coastal and estuarine habitat and land
         use. The program currently provides long-term data on water quality and weather at
         high frequency time intervals (every 15 to 30 minutes) to researchers, natural resource
         managers, and other coastal decision makers. These types of data are critical indicators
         of environmental conditions for numerous estuarine species and their habitats. . .
         [SWMP equipment is] now providing real-time data for a variety of purposes, including
         weather forecasts, fisheries, stewardship, and transportation. 31

Generally, SWMP data are collected and transmitted by water quality monitoring data sondes
(and associated probes) and data loggers that are placed in the water. 32 The SWMP at each
NERRS facility also includes a scientific weather station for implementation of the SWMP’s
meteorological component (collectively, the “SWMP equipment”). 33

II.      Legal and Regulatory Overview
The NERRS was established by Section 315 of the Coastal Zone Management Act of 1972, as
amended. 34 15 C.F.R. § 921.50 authorizes NOAA to provide financial support for research
projects within the NERRS. 35 Title 10, Chapter 2 of the Disaster Relief Appropriations Act of
2013 provided the funding at issue in this report. Number 11.483 of the Catalog of Federal
Domestic Assistance (CFDA) provides specific information on this funding, including eligibility
requirements. 36 After the legislation was enacted, the application procedures and evaluation
criteria were publicly announced on August 7, 2013. 37

The DOC Pre-Award Notification Requirements for Grants and Cooperative Agreements list
the policies and procedures with respect to applications for all DOC-sponsored grants and
cooperative agreements and apply to the Hurricane Sandy funding opportunity. 38 The DOC
Grants and Cooperative Agreements Manual (the “Manual”), updated March 1, 2013, “applies
to all DOC operating units in their award, management, and administration of grants and
cooperative agreements.” 39 The Manual also sets forth guidance on grants administration and



31
   NERRS, SWMP One-Pager, http://www.nerrs.noaa.gov/Doc/PDF/Background/SWMPOnePager.pdf (last visited
Apr. 3, 2014).
32
   National Estuarine Research Reserve – Sandy Supplemental – Equipment 6 (Apr. 2013) [hereinafter NERR
Guidance].
33
   Id.
34
   See 16 U.S.C. §§ 1451-64.
35
   15 C.F.R. § 921.50.
36
   See Catalog of Federal Domestic Assistance: NOAA Programs for Disaster Relief Appropriations Act – Non-Construction
and Construction No. 11.483,
https://www.cfda.gov/index?s=program&mode=form&tab=core&id=10be84e8302f5d9dc1ef0a85ea15ce50 (last
visited Apr. 17, 2014) [hereinafter CFDA].
37
   NOAA, Request for Applications – Non-Competitive 1 (undated) (on file with OIG) [hereinafter Request for
Applications] (guidance on Funding Opportunity Number NOAA-NOS-OCRM-2013-2003687).
38
   DOC Pre-Award Notification Requirements for Grans and Cooperative Agreements, 77 Fed. Reg. 74634 (DOC
Dec. 17, 2012).
39
   DOC, DOC Grants and Cooperative Agreements Manual § 2(C) (updated Mar. 1, 2013)
http://www.osec.doc.gov/oam/grants_management/policy/documents/FINAL%20Master%20DOC%20Grants%20Ma
nual%202013%20(03.01.13)_b.pdf (last visited Apr.17, 2014) [hereinafter Manual].


REPORT #13-0963                                                                                                    7
provides the Department with a uniform set of minimum procedures for federal funding
announcements as well as processes for reviewing, awarding, managing and closing out of
grants. 40 Additionally, the Manual references policies and procedures for use by the Department
to ensure the consistent implementation of legislation, regulations, Office of Management and
Budget (OMB) circulars, executive orders (EOs), and Departmental policies and procedures
related to financial assistance. 41




40
     Id. § 2(A).
41
     Id.


REPORT #13-0963                                                                              8
Chapter 3: Allegations
1.    A NERRS facility submitted a grant application to NOAA that
      fraudulently requested funds under the Disaster Relief
      Appropriations Act to replace assets that were not “damaged” by
      Hurricane Sandy.
Facts

In a January 28, 2013 e-mail to personnel at NERRS facilities affected by Hurricane Sandy,
NOAA announced that federal funding appropriated by the Act would be made available to the
public, and that approximately $1.1 million would be designated for the NERRS facilities for
SWMP repair and replacement. 42 In February 2013, researchers from at least two NERRS
facilities expressed reservations directly to NOAA officials regarding the use of the Hurricane
Sandy funding to replace certain assets that they could not legitimately claim were “damaged”. 43

NOAA distributed a document, dated April 2013, to the NERRS facilities that served as a
template for the Hurricane Sandy funding applications. 44 This document stated:

         [t]he disaster assistance awards are used to replace and repair observing systems,
         equipment, supplies, and infrastructure that was lost, damaged, or compromised during
         Hurricane Sandy in October 2012. 45

The “Task Description” portion of this document provided a template for the applications and
instructs:

         [t]he Reserve will procure (reserves should provide details here on the type and
         number of data sondes and associated equipment, including telemetry, that
         will be acquired) to replace lost, damaged, and compromised water quality monitoring
         equipment. 46

The application for the NERRS facility that is the subject of the whistleblower’s complaint
stated that the SWMP equipment continued to operate during the storm, but assumed the
storm placed stress on the equipment. 47 The application claimed that following Hurricane Sandy




42
   E-mail from NOAA Employee B to OIG (forwarding information regarding communications with the NERRS
facilities) (Jan. 6, 2014) (on file with OIG).
43
   OIG IRF: Interview with Key Witness 4 [hereinafter OIG IRF: Key Witness Interview]; E-mail from Key Witness to OIG
(Mar. 6, 2014) (on file with OIG) (forwarding e-mail from another NERRS employee expressing concern about
funding).
44
   See NERR Guidance, supra.
45
   Id. at 3.
46
   Id. at 6.
47
   NERR 1, Hurricane Sandy Supplemental Relief Funding for NERR 1 in a certain East Coast state 1 (undated)
[hereinafter NERR 1 Application] (NERR 1 application).


REPORT #13-0963                                                                                                   9
the SWMP assets had some issues. 48 Interviews of staff at this particular NERRS facility revealed
that the assets for which Hurricane Sandy funding was requested operated properly before,
during, and after Hurricane Sandy. 49

Funding applications submitted by all nine NERRS facilities similarly requested Hurricane Sandy
funds for at least some SWMP equipment that was described as “compromised” and not
described as “damaged.” 50 NOAA approved all of the NERRS facilities’ applications for
Hurricane Sandy funding.

OIG Analysis

The Act designates the Hurricane Sandy funding to “repair and replace ocean observing and
coastal monitoring assets damaged by Hurricane Sandy,” 51 and the application that is the subject
of the whistleblower’s allegation does not claim that any assets were actually damaged by
Hurricane Sandy. 52 Thus, this application seems inappropriate on its face. As noted above, the
NERRS facility’s application does not claim any of the SWMP equipment failed during the storm,
and it did not specify that the assets were damaged. 53 Instead, the application only stated that
the SWMP equipment was “compromised.” 54 Furthermore, regarding the condition of the
assets, the application only assumed the storm placed stress on the SWMP equipment. 55

The application follows the template for Hurricane Sandy funding applications provided by
NOAA and uses the term “compromised” to describe the SWMP assets. While the application
itself does not appear to qualify for funding (it is based on an eligibility standard that expands
beyond the plain language standard established by the Act), the application also does not appear
to contain false assertions or misrepresent the state of the assets. The application itself, along
with statements from employees at this NERRS facility, indicate that those most closely
involved with the SWMP assets did not feel comfortable certifying the assets were “damaged”
by Hurricane Sandy as specified by the Act. Accordingly, OIG’s review determined that the
application does not satisfy the eligibility standard provided by the plain language of the Act.

OIG’s investigation revealed the Hurricane Sandy funding application completed by the NERRS
facility in question (along with applications by other NERRS facilities) was based on guidance
from NOAA officials regarding which assets were eligible for replacement. This information led
OIG to consider the origin of and justification for the guidance NOAA officials provided to the
NERRS facilities regarding the eligibility standard for Hurricane Sandy funding under the Act.
Section 2 of this chapter discusses this issue in greater detail.




48
   Id. at 1.
49
   See OIG IRF: Whistleblower Interview, supra, at 4; see also OIG IRF: Key Witness Interview, supra, at 4.
50
   See Appendix B.
51
   Disaster Relief Appropriations Act, supra, at Title 10, Ch. 2.
52
   See NERR 1 Application, supra.
53
   Id. at 1.
54
   Id.55 Id.
55
   Id.


REPORT #13-0963                                                                                               10
NOAA advised the NERRS facilities that the Act’s funding supported the repair and
replacement of assets that were “lost, damaged, or compromised during Hurricane Sandy.” 56
Given NOAA’s guidance and subsequent approval of the applications, the NERRS facilities’
culpability in the Hurricane Sandy funding application process appears limited. In fact, NOAA
officials were aware that employees of at least two NERRS facilities expressed concerns about
using Hurricane Sandy funding to purchase assets they could not legitimately claim were
“damaged” by the storm. 57 During interviews, NOAA officials noted the NERRS facilities had
questions regarding eligibility for funding and the term “damaged,” and the NOAA officials
responded to these questions by advising the NERRS facilities that “lost, damaged, or
compromised” assets were eligible for the funding. 58 The NERRS facilities could have requested
funding only for assets they could demonstrate were actually “damaged” by Hurricane Sandy,
and this approach would have insured compliance with the Act. However, the NERRS facilities
appear to have taken guidance and instruction regarding funding eligibility from NOAA, the
agency evaluating and approving their Hurricane Sandy applications. Ultimately, NOAA advised
the applicants to represent their eligibility for Hurricane Sandy funding based on a standard that
was broader than the standard established by the Act’s plain language.




56
   Request for Applications, supra, at 1; see also NERRS Guidance, supra, at 3; NOAA Employee A, supra.
57
   See NOAA Employee B, supra; OIG IRF: Key Witness Interview, supra, at 4; see also Key Witness, supra.
58
   OIG IRF: Interview with NOAA Employee B 4 [hereinafter OIG IRF: NOAA Employee B Interview]; OIG IRF:
Interview with NOAA Employee C 5 [hereinafter OIG IRF: NOAA Employee C Interview].


REPORT #13-0963                                                                                            11
II. NOAA provided guidance to NERRS facilities during the grant
    application process that expanded the plain language of the
    Disaster Relief Appropriations Act and subsequently approved
    funding for assets that did not meet the eligibility criteria for the
    Hurricane Sandy funding established by the Act.
Facts

To authorize the Hurricane Sandy funding, NOAA drafted Number 11.483 of the Catalog of
Federal Domestic Assistance (CFDA). 59 CFDA 11.483 lists the following as objectives of the
funding:

         1. Protect, Restore, and Manage the Use of Coastal and Ocean Resources through an
            Ecosystem Approach to Management;

         2. Understand Climate Variability and Change to Enhance Society’s Ability to Plan and
            Respond;

         3. Serve Society's Needs for Weather and Water Information. 60

The eligibility section provides the following:

         Applicant Eligibility (081): . . . Repair and replace ocean observing and coastal monitoring
         assets damaged by Hurricane Sandy. . .

         Beneficiary Eligibility (082): Entities impacted by Hurricane Sandy in 2012; entities
         benefitting from other activities funded through the Act. 61

As noted above, employees from at least two NERRS facilities expressed concerns to NOAA
officials about the appropriateness of claiming the SWMP equipment they wanted to replace
with the Hurricane Sandy funding was “damaged” as a result of Hurricane Sandy. 62

NOAA distributed the “National Estuarine Research Reserve – Sandy Supplemental –
Equipment,” dated April 2013, to assist the NERRS facilities in completing their Hurricane
Sandy funding applications. 63 According to a NOAA employee, NOAA distributed this
document to ensure uniformity among the applications and to enable a more efficient review
process. 64 The introduction section of this document provides: “The disaster assistance awards
are used to replace and repair observing systems, equipment, supplies, and infrastructure that



59
   CFDA 11.483 addresses the multiple funding objectives listed in Title 10, Chapter 2 of the Act, and it is not
limited to the funding designated for the NERRS facilities.
60
   CFDA, supra, at § (050).
61
   CFDA, supra, at §§ (081), (082).
62
   See Key Witness, supra.
63
   See NERR Guidance, supra, at 3.
64
   OIG IRF: Interview with NOAA Employee A 4 [hereinafter OIG IRF: NOAA Employee A Interview].


REPORT #13-0963                                                                                                    12
was lost, damaged, or compromised during Hurricane Sandy in October 2012. This guidance
provides information for creating your grant application.” 65 This document effectively supplied a
template for the NERRS facilities’ Hurricane Sandy funding applications. The introduction
section of the template provides the following instruction:

        The (reserve name) was designated in (year) and is located in (state). The reserve is
        administered by (state agency name) who is submitting this application for fiscal year
        2013 funds under the Sandy Recovery Improvement Act of 2013 to support the repair
        and replacement of ocean observing and coastal monitoring assets damaged, lost, or
        compromised by Hurricane Sandy. The (state agency) is requesting (amount of
        federal funds) for an award period of (award start date) through (award end date).

        Effects of Hurricane Sandy to the (reserve name) included (BRIEF description of
        hurricane impacts). The Reserve’s observing and monitoring assets were destroyed,
        lost, damaged, or compromised as follows: (BRIEF description of deployment during
        storm and loss, damage, etc.). Funds will be used to purchase (list broad categories:
        data sondes and sensors, telemetry equipment, replacement of infrastructure
        associated with monitoring system), which will support the National Estuarine
        Research Reserve System-wide Monitoring Program (SWMP). 66

The template also includes a section titled “Task Description:”

        The NERRS System-wide Monitoring Program (SWMP) collects quantitative
        measurements of short-term variability and long-term changes in the water quality,
        biological systems, and land-use/land-cover characteristics of estuaries and estuarine
        ecosystems for the purposes of informing effective coastal zone management. (Describe
        in greater detail what equipment was deployed during the storm and what
        damage/loss was experienced. A separate task will be included for replaced
        damaged/lost infrastructure) . . .

        The Reserve will procure (reserves should provide details here on the type and
        number of data sondes and associated equipment, including telemetry, that will be
        acquired) to replace lost, damaged, and compromised water quality monitoring
        equipment.

        A . . . weather station is required for implementation of the meteorological component
        of SWMP. The Reserve will procure (reserves should provide details here on the type
        and number of meteorological monitoring equipment, including telemetry, that
        will be acquired) to replace lost, damaged, and compromised metrological monitoring
        equipment. 67




65
   NERR Guidance, supra, at 3.
66
   Id. at 5.
67
   Id., at 6. Based on the amounts requested by the applications for the Hurricane Sandy funding, the average cost
of a datasonde and related probes and accessories is approximately $13,000 to $14,000.


REPORT #13-0963                                                                                                  13
NOAA’s Request for Applications for Funding Opportunity Number: NOAA-NOS-OCRM-
2013-2003687 (the “Request for Applications”), sets out the official guidelines for Hurricane
Sandy funding applicants. 68 The section entitled “Funding Opportunity Description” states,
“NOAA will be providing funds to National Estuarine Research Reserves (NERR) affected by
Hurricane Sandy to replace and repair observing systems, equipment, supplies, and
infrastructure that was lost, damaged, or compromised during Hurricane Sandy in October
2012.” 69

NOAA also circulated a memorandum, dated August 30, 2013, regarding “Non-competitive
justification for FY 2013 Disaster Relief for National Estuarine Research Reserve System
(NERRS) Monitoring Assets Replacement.” 70 This memorandum identified the nine NERRS
facilities listed above in Chapter 1 as the only reserves impacted by Hurricane Sandy, and thus
these nine facilities were the only reserves eligible for funding. 71 The memorandum explains,
“[t]he Estuarine Reserves Division was able to allocate funds to reserves in such a way that all
potential recipients received funding to meet their needs and no competition of funding was
necessary.” 72 The memorandum further explains, “[f]unding supporting reserves under the
Disaster Relief Appropriations Act of 2013, Public Law 113-2 has been made available to fund
the repair and replacement of NERRS monitoring assets lost, damaged or compromised during
Hurricane Sandy in October 2012.” 73

The Form CD-450, “Financial Assistance Award,” which constitutes an obligation of Federal
funding to the recipient and an agreement by the recipient to comply with certain terms and
conditions, was accepted by each NERRS facility on dates ranging from September 24, 2013 to
October 22, 2013. 74

OIG conducted interviews of NOAA officials that participated in the Hurricane Sandy funding
application review and approval process. These interviews included a NOAA employee that
processed each application, a NOAA employee that worked directly with the NERRS facilities
throughout the application process, and personnel from NOAA’s Grants Management Division
(GMD) and DOC’s Office of General Counsel (OGC) that provided Hurricane Sandy funding
approval and legal sufficiency reviews for each application.

OIG spoke with a NOAA employee (NOAA Employee A) that assisted with both the
execution of the grant awards at issue and the processing of all nine of the NERRS facilities’
applications for Hurricane Sandy funding. 75 NOAA Employee A also participated in the drafting
and editing of CFDA 11.483, which was ultimately approved by OMB, 76 and helped draft the



68
   See Request for Applications, supra.
69
   Id. at 1.
70
   See Memorandum on Non-competitive Justification, supra.
71
   See id.
72
   Id. at 1.
73
   Id.
74
   Information acquired from https://grantsonline.rdc.noaa.gov (accessed on Mar. 5, 2014).
75
   OIG IRF: NOAA Employee A Interview, supra, at 1-2.
76
   Id. at 3.


REPORT #13-0963                                                                                 14
document titled: “National Estuarine Research Reserve – Sandy Supplemental – Equipment,”
which served as a template for the NERRS facilities’ applications. 77 While NOAA Employee A
did not claim to have added the term “compromised” to the “National Estuarine Research
Reserve – Sandy Supplemental – Equipment,” the employee indicated the word “compromised”
was used in this document in relation to creating and maintaining a complete observing and
monitoring system. 78 NOAA Employee A viewed “compromised” as “damaged in a different
way.” 79

NOAA’s GMD, along with DOC’s OGC, reviewed and approved the Request for Applications
and each NERRS facility’s application for Hurricane Sandy funding. 80 OIG was informed that
GMD and OGC review requests for applications for the purpose of determining whether they
accurately reflect the intent of Congress. 81 GMD approved the Request for Applications, which
included the language “lost, damaged, or compromised,” because it believed the terms “lost,
damaged, or compromised” were within the confines of the term “damaged” as used in the
Act. 82 GMD pointed out that the NERRS facilities self-certified that the condition of their
SWMP equipment met the requirements of the Request for Applications, and NOAA had to
rely on this self-certification when reviewing the Hurricane Sandy funding applications. 83

OGC cited the DOC Grants and Cooperative Agreements Manual as the source of OGC’s
authority to interpret Congress’ intent in appropriating funds for a particular purpose. 84 The
Manual states that OGC provides legal analysis to program officials and grants officers regarding
appropriations acts. 85 Accordingly, OGC provided legal analysis of NOAA’s interpretation of
the Act’s intent and concluded NOAA’s addition of the term “compromised” was within the
Act’s intent. 86 To support the approval of this interpretation, OGC specifically pointed to the
first sentence of the Act which states that the Act is “making supplemental appropriations for
the fiscal year ending September 30, 2013, to improve and streamline disaster assistance for
Hurricane Sandy, and for other purposes.” 87 OGC noted this particular sentence gave NOAA
the ability to add the word “compromised” to the standard for funding eligibility when drafting
the Request for Applications. 88 The draft of the Request for Applications that OGC reviewed
and approved included of the term “compromised.” OGC did not recall any discussions about
the term “compromised” during the review, but OGC determined the words “lost, damaged,
or compromised” were within the Act’s intent. 89




77
   See id. at 4.
78
   Id. at 5.
79
   Id. (quoting NOAA Employee A).
80
   OIG IRF: Interview with NOAA GMD and OGC 1-3 [hereinafter OIG IRF: GMD and OGC Interview].
81
   See id. at 3.
82
   See id. at 2.
83
   See id.
84
   E-mail from OGC to OIG (Jan. 23, 2014) (on file with OIG).
85
   Manual, supra, at § 4(C)(1)(b)(2).
86
   OIG IRF: GMD and OGC Interview, supra, at 3.
87
   Disaster Relief Appropriations Act, supra; OIG IRF: GMD and OGC Interview, supra, at 3.
88
   OIG IRF: GMD and OGC Interview, supra, at 3.
89
   Id.


REPORT #13-0963                                                                                 15
A NOAA employee (NOAA Employee B) had discussions with the NERRS facilities about the
assets eligible for the Hurricane Sandy funding. 90 NOAA Employee B was instrumental in the
early stages of planning for the Hurricane Sandy funding and noted the conditions surrounding
the funding were difficult, due to a short time frame for organizing the funding. 91 Further
complicating matters, the funding implementation process was different than the appropriations
process to which NOAA is accustomed. 92 NOAA Employee B noted there was a question
about the intent of the funding because the Act only provided one line of information. 93 NOAA
Employee B asserted the intent of the Act was to maintain an operating observation system
that was able to function when the next storm hit. 94

     Origin of the Term “Compromised”

NOAA Employee B explained the term “compromised” came about when one of the NERRS
facilities reported a monitoring instrument’s terminals showed signs of corrosion. 95 This
instrument was still functioning properly, but the corrosion indicated a potential problem. 96
NOAA Employee B believes “compromised” may have been added to the Request for
Applications as a result of this issue, in order to answer other NERRS facilities’ questions
regarding whether SWMP equipment could be considered “damaged” for purposes of the Act if
it was still functioning and operational. 97

OIG interviewed another NOAA employee (NOAA Employee C) that worked closely with the
NERRS facilities on the Hurricane Sandy funding. Similar to NOAA Employee B, NOAA
Employee C believed the purpose of the Hurricane Sandy funding under the Act was to restore
and continue the observational capacity of the NERRS facilities. 98 NOAA Employee C
confirmed the term “compromised” was introduced during a discussion with NERRS facilities
regarding the replacement of a monitoring instrument with corroded terminals. 99 NOAA
Employee C discussed the funding with employees at the NERRS facilities and thought the
NERRS facilities interpreted the word “damaged” too literally. 100 The employee provided the
word “compromised” to clarify funding eligibility requirements and to guide the NERRS
facilities’ determinations of SWMP equipment eligible for replacement. 101 NOAA Employee C
explained to OIG that the addition of the word “compromised” was based on an interpretation
of the word “damaged,” and stated that “damaged,” in the context of the Act, meant an
instrument’s ability to collect data is compromised. 102 NOAA Employee C attempted to limit



90
   OIG IRF: NOAA Employee B Interview, supra, at 2, 4.
91
   Id. at 1-2.
92
   Id.
93
   Id. at 3.
94
   Id.
95
   Id. at 4.
96
   Id.
97
   Id.
98
   OIG IRF: NOAA Employee C Interview, supra, at 4.
99
   Id.
100
    Id.
101
    Id. at 5.
102
    Id. at 4.


REPORT #13-0963                                                                             16
the SWMP equipment eligible for replacement by advising the NERRS facilities they could only
request Hurricane Sandy funding for items that were: (1) deployed during Hurricane Sandy; and
(2) lost, damaged, or compromised. 103 This employee did not think the addition of the word
“compromised” changed the pool of SWMP equipment that would otherwise be eligible for
replacement. 104

OIG also interviewed an employee at the NERRS facility identified in the original complaint (the
“Key Witness”). This Key Witness works with the researchers and technicians who interact
with the SWMP equipment for which the funding was intended and has worked directly with
the SWMP equipment. 105 The Key Witness stated the SWMP equipment at his NERRS facility
worked properly before, during, and after Hurricane Sandy. 106 The Key Witness reviewed the
language of the Act and was aware the funding was limited to assets “damaged by Hurricane
Sandy.” 107 Accordingly, the Key Witness expressed concerns and reservations as to the
propriety of requesting funding for SWMP equipment he could not truthfully specify was
“damaged.” 108 The Key Witness specifically addressed his concerns to NOAA personnel and to
employees at the other NERRS facilities affected by Hurricane Sandy. 109 In connection with the
Hurricane Sandy funding request, the Key Witness insisted he could only specify that the
SWMP equipment was exposed and in the water during the storm, and that there was a need
to maintain a robust monitoring system. 110 The Key Witness maintained he would agree with
acceptance of the Hurricane Sandy funding if NOAA approved his specification and description
of the SWMP equipment. 111

      OIG’s Attempt to Delay Reimbursements and/or Purchases under the Act

After receiving a complaint alleging the fraudulent use of Hurricane Sandy funding and
conducting an initial assessment of the matter, on November 18, 2013, OIG distributed a
memorandum to NOAA’s Acquisitions and Grants Office requesting that NOAA place a hold
on reimbursements and/or purchases by the NERRS facilities using the Act’s funding. 112 The
memorandum explained OIG received a complaint raising concerns that a NERRS facility
improperly used Hurricane Sandy funding to replace aging assets that were not damaged by the
storm. 113 The memorandum informed NOAA’s Acquisitions and Grants Office that OIG’s
preliminary investigation into the matter appeared to substantiate portions of the complaint and
that Hurricane Sandy funding awarded to other NERRS facilities may also be inappropriate. 114



103
    Id.
104
    Id. at 5.
105
    OIG IRF: Key Witness Interview, supra, at 1-2.
106
    Id. at 4.
107
    Id.
108
    Id.
109
    Id.
110
    Id.
111
    Id. at 4-5.
112
    Memorandum from OIG to NOAA Acquisitions and Grants Office (Nov. 18, 2013) (on file with OIG)
(requesting delay in reimbursements and/or purchases under the Act).
113
    Id.
114
    Id.


REPORT #13-0963                                                                                     17
The memorandum requested that NOAA’s Acquisitions and Grants Office delay any
reimbursement using Hurricane Sandy funding to the involved NERRS facilities until OIG could
determine whether the funding was properly awarded in accordance with the Act. 115 The
memorandum also recommended the NERRS facilities in question delay any purchases using
Hurricane Sandy funding. 116 Following receipt of the memorandum, NOAA’s Acquisitions and
Grants Office temporarily complied with OIG’s request to delay any purchases of SWMP
equipment using Hurricane Sandy funding. 117 OIG met with members of NOAA’s GMD and
OGC on November 21, 2013. 118 During this meeting, OIG provided the details of and
circumstances surrounding the complaint as well as the information discovered during the
investigation that corroborated portions of the complaint. 119 Later that day, NOAA’s GMD
lifted the hold on the Hurricane Sandy funding on November 21, 2013. 120 NOAA’s GMD
informed OIG that in order to extend the hold, NOAA would have to notify the grantees of an
enforcement action, and the grantees would have a right to appeal the hold. 121

OIG Analysis

Based on interviews of relevant individuals, along with a review of applicable regulations,
documents and NERRS facilities’ applications for Hurricane Sandy funding, OIG concludes that
NOAA provided guidance to NERRS facilities during the grant application process that
expanded the plain language of the Act. OIG also concludes that NOAA subsequently approved
Hurricane Sandy funding for assets that should not have been eligible for funding under the Act.

The Act and CFDA 11.483 use only the word “damaged” when specifying the assets eligible for
replacement with Hurricane Sandy funding. NOAA expanded the eligibility requirements of the
Act and CFDA 11.483 by distributing documents to the NERRS facilities that included the term
“compromised” and by advising the NERRS facilities that equipment “compromised” by
Hurricane Sandy was eligible for replacement with funding under the Act.

Through questions about whether corroded assets were eligible for funding and through an e-
mail to NOAA officials directly addressing the subject, NOAA officials were aware employees
at NERRS facilities had concerns about legitimately claiming SWMP assets were “damaged” by
Hurricane Sandy. 122 The term “compromised” originated during discussions between NOAA
officials and employees at NERRS facilities regarding assets that operated properly following
Hurricane Sandy but that showed signs of corrosion. As a result of these discussions, NOAA
determined “compromised” assets should be eligible for replacement with this funding and
further determined “compromised” was a form of “damaged” and within the Act’s intent.
According to NOAA, the term “compromised” was added to the eligibility standards to clear



115
    Id.
116
    Id.
117
    See e-mail from NOAA/GMD official to OIG (Dec. 18, 2013) (on file with OIG).
118
    OIG IRF: GMD and OGC Interview, supra, at 1.
119
    Id. at 3-4.
120
    See NOAA/GMD official, supra.
121
    See id.
122
    OIG IRF: NOAA Employee C Interview, supra at 4, 5; OIG IRF: NOAA Employee B, supra, at 4; see Key Witness, supra.


REPORT #13-0963                                                                                                     18
up the NERRS facilities’ confusion and concern regarding what SWMP equipment could be
replaced with the Hurricane Sandy funding. 123 As a result, the NERRS facilities supported their
claims for funding eligibility by stating the SWMP assets were “compromised” by Hurricane
Sandy and the addition of the term “compromised” to the funding eligibility standards served to
address concerns of NERRS employees who questioned the use of Hurricane Sandy funding to
replace SWMP equipment they could not legitimately claim was “damaged” by the storm.
NOAA officials justified this addition of language by reasoning that “compromised” assets met
the Act’s standard for replacement insofar as the intent of the Act was to restore and continue
a robust monitoring and observational system. NOAA officials did not indicate they consulted
or sought approval from any outside sources regarding their interpretation of the Act.

OIG determined NOAA potentially approved a total of approximately $550,200 in Hurricane
Sandy funding under the Act to replace SWMP equipment for which the NERRS facilities made
no clear specification of damage. 124 To determine this amount, OIG reviewed each of the nine
NERRS applications for Hurricane Sandy funding and counted the items about which a NERRS
facility either made no claims as to damage and/or described as “compromised.” 125 As displayed
in Appendices B and C, the justification for the replacement of the majority of these assets is
largely based on the term “compromised,” an eligibility standard that can neither be definitively
shown nor easily denied. Furthermore, the NERRS facilities were only required to describe the
condition of the assets, and they did not provide any detailed proof of the condition of the
assets they were seeking to replace (e.g. photographs or data logs showing failure of SWMP
assets). OIG concludes the addition of the term “compromised” resulted in the NERRS facilities
receiving Hurricane Sandy funding for assets they could not truthfully specify as “damaged.” The
addition of the term “compromised” to the Request for Applications was inconsistent with the
plain language of the Act.




123
    Id.
124
    See Appendix C.
125
    See Appendix C.


REPORT #13-0963                                                                               19
Chapter 4: Conclusions and Recommendations
I.      Findings
        A. The NERRS facility that was the subject of the whistleblower’s complaint submitted
           a grant application to NOAA that requested funds under the Act to replace assets
           that were not “damaged” by Hurricane Sandy, the Act’s threshold eligibility
           criterion. OIG did not find evidence of fraud in this particular application, or similar
           applications from other NERRS facilities. However, these applications were, at a
           minimum, inappropriate insofar as they requested Hurricane Sandy funding for assets
           that did not appear to be covered by the plain language of the Act. As a result, there
           was an expenditure of funds that was not in accordance with the Act. The NERRS
           facility’s request for Hurricane Sandy funding for these assets was based on NOAA’s
           interpretation of the Act and resulting guidance that assets which were “lost,
           damaged, or compromised” were eligible for Hurricane Sandy funding.

        B. NOAA provided guidance to NERRS facilities during the grant application process
           that expanded the plain language of the Act. NOAA subsequently approved funding
           for assets that should not have been eligible for the Hurricane Sandy funding. In
           many cases, the NERRS facilities simply stated an asset was “damaged” or
           “compromised” and did not submit any documentation or information regarding the
           claim that an asset was compromised or damaged.

        C. OIG, upon determining the existence of a potential conflict between the plain
           language of the Act and NOAA’s guidance to the NERRS facilities as to what was
           eligible for Hurricane Sandy funding, advised NOAA’s Acquisitions and Grants Office
           to suspend the funding for any purchases of replacement SWMP equipment until
           OIG could determine whether the funding was properly awarded. NOAA suspended
           the funding for approximately 48 hours, after which it reversed its agreement to
           suspend the funding and allowed the NERRS facilities to resume requests for
           reimbursement. (See Appendix D, Memorandum from OIG Assistant Inspector
           General for Investigations (AIGI) to NOAA, Acquisitions and Grants Office
           (November 18, 2013) (requesting delay in reimbursement and/or purchases under
           the Act))

II.     Conclusions
        A. While OIG did not find evidence of fraud, the NERRS facilities’ applications
           requested Hurricane Sandy funding for assets that were not eligible for coverage
           under the Act because they were not “damaged” by the storm – the threshold
           requirement under the Act. Rather, the applications stated that NERRS assets had
           been “lost, damaged, or compromised” by Hurricane Sandy. This expanded
           eligibility standard resulted from an interpretation of the intent of the Act by NOAA
           officials that was subsequently approved by officials from NOAA’s Grants
           Management Division and DOC’s Office of General Counsel.



REPORT #13-0963                                                                                 20
        B. NOAA considered assets that were “lost, damaged, or compromised” to be eligible
           for Hurricane Sandy funding and believed this eligibility standard provided clarity to
           the NERRS facilities. According to NOAA officials, the Act’s intent was to restore
           and continue the observational capacity of the NERRS facilities, and this “lost,
           damaged, or compromised” standard (which was an interpretation of the Act’s
           stricter standard of “damaged”) fulfilled that intent. The NERRS facilities’ hesitation
           to specify that their SWMP equipment was “damaged” should have given NOAA
           officials cause to seek a fuller explanation of the Act’s intent or possibly submit a
           reprogramming request to the Appropriations Committee, rather than leading it to
           expand the plain language of the Act to assuage the concerns of the NERRS facilities.
           By advising the NERRS facilities that “compromised” assets were eligible for
           replacement, NOAA introduced a vague and ambiguous standard that could not be
           definitively shown and encouraged NERRS facilities to apply for Hurricane Sandy
           funding for assets that should not have been eligible under the Act. The NERRS
           facilities utilized this expansion in the language of the Act and provided little, if any,
           supporting information regarding the state of the assets to be replaced.

        C. By using disaster relief funds to purchase new SWMP assets to replace (1.) aging
           SWMP assets that have experienced normal wear and tear and (2.) SWMP assets
           with deteriorating conditions existing before the storm, NOAA defeated the
           purpose of the Act and deprived itself and potentially others from using the funds
           for purposes that would more directly benefit the victims of Hurricane Sandy or
           remediate damage caused by the storm.

III.    Recommendations
We recommend that NOAA:

        A. Make a determination on the recovery of questioned costs identified in Appendix C.

        B. In consultation with OGC, determine whether NOAA violated any laws or
           regulations when funds for items listed in Appendix B were spent by grantees.

        C. Review other NOAA programs to determine whether the scope of the Act was
           similarly expanded and report on results.

        D. Develop an internal approval process for all substantive changes to eligibility
           standards or requirements in NOAA grant programs, including documentation
           related to the justification for interpretations of laws or regulations resulting in such
           changes.

        E. Make a determination on supplementing grantee self-certifications with additional
           documentation, validation or other controls.




REPORT #13-0963                                                                                   21
Appendix A: National Ocean Service Spend
Plan for $7,000,000 Designated for Ocean
Observing and Coastal Monitoring Asset Repair
and Replacement
Program,          Amount       Sequester                                     Description
Project, or        ($000)       Amount
 Activity                        ($000)
  (PPA)
NERRS             $1,100       $1,045         Replace coastal monitoring infrastructure related to NERRS System-wide
                                              Monitoring Program (SWMP) at nine reserves affected by Hurricane Sandy.
                                              The request includes SWMP water quality data loggers, telemetry,
                                              meteorological stations and other equipment and infrastructure for access
                                              to SWMP stations.
Tide and          $2,000       $1,900         A 2008 gaps analysis of National Water Level Observation Network
Current                                       (NWLON) documented 20 NWLON gaps in moderate to heavily populated
Data Base                                     coastal areas between Cape Cod and North Carolina. The National Ocean
                                              Service (NOS) requires $2.0M to repair and strengthen NWLON stations
                                              (no additional O&M costs) that will provide real time storm surge and
                                              meteorological data. All NWLON data feeds directly into the NWS Global
                                              Telecommunications System and is used by the National Hurricane Center
                                              for storm surge modeling, local weather forecasts, and NOS Operational
                                              Forecast System models. Emergency managers directly access the real-time
                                              data to assess local conditions for search and rescue, evacuation decisions,
                                              and other preparedness and response actions. The data also improves
                                              coastal inundation models for both short term extreme events to long term
                                              sea level rise.
Tide and          $1,150       $1,092         CO-OPS Physical Oceanographic Real-Time System (PORTS) stations in
Current                                       coastal areas (VA through RI) were significantly impacted by Hurricane
Data Base                                     Sandy. NOS requests $1.2M to assess damage, conduct geodetic surveys to
                                              document station stability, and conduct emergency repairs ranging from
                                              minor through complete replacement of the station equipment. Funds will
                                              be used for equipment and support components, contracts to replace/repair
                                              stations, and assessment, travel and overtime. Timely, accurate and reliable
                                              data from the PORTS stations are critical for safe and efficient maritime
                                              operations, storm surge and tsunami warnings, oil spill response and other
                                              safety of life and property decisions.
IOOS              $2,750       $2,613         Repair or replace damaged high frequency radar systems, observing buoys
Regional                                      and other equipment in affected regions. NOS estimates that the storm
Observations                                  damaged 17 Integrated Ocean Observing System (IOOS) high frequency
                                              radar sites and two damaged buoys. These requested funds are necessary to
                                              repair or replace the affected equipment. These instruments provide surface
                                              current measurements in support of a variety of high-return applications,
                                              including search and rescue operations, marine transportation, water
                                              pollutant tracking, and harmful algal bloom forecasting.
TOTAL             $7,000       $6,650
Source: Disaster Relief Act Spending Plan, supra.


REPORT #13-0963                                                                                                    22
Appendix B: Justification for Replacement
SWMP Equipment in NERRS Facilities’
Applications for Hurricane Sandy Funding
                                                                                               SWMP Equipment
  NERRS Facility                            Funding Justification
                                                                                                 Requested

 Chesapeake Bay,      “Effects of Hurricane Sandy . . . included damage to the pier           • 1 sonde with probes
 MD                   holding the System-wide Monitoring Program (SWMP) station at              and associated
                      Monie Bay, and high water levels compromising the functioning of          accessories
                      the sonde deployed in this site . . . [S]torm surge and associated
                      high water levels resulting from Hurricane Sandy caused severe          • 1 telemetry unit
                      damage to the pier that physically supported the sonde and                including necessary
                      telemetry unit for the Monie Bay component of the Reserve,                accessories
                      compromising both (the sonde and telemetry unit) as they were
                      deployed during the storm. Currently, the cable that connected to
                      both the sonde and telemetry unit is still trapped within the
                      damaged pier (under water).”

 Chesapeake Bay, VA   “While no catastrophic failure was noted, water quality sondes          • 2 sondes with probes
                      were compromised at the two (2) most open water stations. . .             and associated
                      Water quality sondes at these stations incurred significant shock         accessories
                      impact stress with the station infrastructure leading to reduced life
                      expectancy.”

 Delaware             “Four aging . . . sondes were deployed during Hurricane Sandy (3        • 4 sondes with probes
                      in the St. Jones and 1 in Blackbird Creek) and incurred significant       and associated
                      stress to the units and probes; especially due to increased               accessories
                      sediment loads and currents. The water quality telemetry unit           • 1 telemetry unit and
                      became compromised due to an enclosure seal leak allowing water           field cable
                      leakage during heavy rain and winds. This leakage caused severe
                      corrosion to the communication port of the telemetry unit               • 1 barometric pressure
                      rendering laptop interface with the unit impossible. Meteorological       sensor
                      station damages were limited to a single barometric pressure unit
                      failed during Hurricane Sandy.”

 Great Bay, NH        “The sondes . . . are very old (all but two are at least eight years    • 4 sondes with probes
                      old and five are more than ten years old) and, we believe,                and associated
                      compromised in their ability to support near and real-time data in        accessories
                      future weather events such as occurred during Super-Storm
                      Sandy. . . The telemetry on at least one sonde was not working          • Various telemetry
                      directly after the storm hit; and although it is working now, we          equipment
                      believe that these systems were impacted by the storm and could         • Weather station
                      not make it through another large event. The meteorological               sensors and associated
                      station is located in an open agricultural field and the high winds       accessories
                      caused some damage that needed to be repaired immediately, and
                      also caused wear and tear on the structure and equipment.”




REPORT #13-0963                                                                                                  23
                                                                                              SWMP Equipment
  NERRS Facility                           Funding Justification
                                                                                                Requested

 Hudson River, NY    “At the time of the storm, the Reserve had six data sondes              • 8 sondes and
                     deployed, along with two telemetry stations. Out of this                  associated accessories,
                     equipment, one sonde was lost, and two sondes and one telemetry           including ten sets of
                     station were inundated and sustained significant damage. The              sonde sensors
                     remaining three sondes and second telemetry station, which were
                     nearly a decade old, were further compromised by the surge,             • 2 telemetry stations
                     increased suspended sediments, and floating debris. Replacement           and associated
                     sondes must be [new models] as the original models are being              structural components
                     phased out by the company. Therefore, two additional sondes and           and power supplies
                     two additional sets of probes must also be acquired to provide
                     backup equipment to maintain a continuous record when other
                     sondes require routine calibration and repair.”

 Jacques Cousteau,   “[O]ne datasonde was lost and three were damaged, a 27 foot             • 6 sondes with probes
 NJ                  coastal research vessel was destroyed including all electronics and       and associated
                     engines, field sampling and sensing gear was lost including               accessories
                     hydrophones and acoustic equipment used for fish tracking studies,
                     an emergency generator was destroyed, and of course major               • 1 telemetry station
                     alterations to habitat and water quality occurred.”                       with associated
                                                                                               structural components
                     “Sonde 02A1048AB was deployed at B6 on telemetry. Leakage and             and power supplies
                     corrosion at the field-cable/sonde juncture was detected after the
                     event, suggesting high current velocity and debris that had             • 1 weather station with
                     collected on the cable strained the connection, compromising              associated structural
                     seals and allowing water intrusion. Sonde 09E100822 was deployed          components, sensors,
                     at B9 and had damage due to leakage/corrosion. Sonde                      and cables
                     01A0197AA was deployed on telemetry at Chestnut Neck; the               • 25’ 4” research vessel
                     telemetry station was wiped out, the field cable connecting it to         including 2 outboard
                     the sonde submerged, and saltwater intrusion through this                 engines, and trailer
                     connection was observed. Sonde 99K0599AA was deployed at BA;
                     the mounting at this station failed due to current/debris, strain was   • 1 emergency
                     exerted on the field cable, and moisture was detected at the              generator
                     cable/sonde juncture, indicating water intrusion into the sonde
                                                                                             • 1 ultra-low -80 freezer
                     body. Regarding the JCNERR’s weather station, while the tower
                                                                                               for storage of nutrient
                     still stands, it was twisted and was deemed unstable during post-
                                                                                               and biological samples
                     event inspection.”
                                                                                             • Various “marine
                     “Significant infrastructure and associated equipment was destroyed
                                                                                               electronics” including
                     during Superstorm Sandy which enabled reserve staff to access
                                                                                               GPS, radios,
                     SWMP stations and store and maintain SWMP samples. These
                                                                                               binoculars, and combo
                     included a 25.4 foot coastal research vessel including 2 outboard
                                                                                               chartplotter/fishfinder
                     engines and electronics, an emergency generator that supports
                     data collection during power outages, and a freezer for sample          • GPS/Sonar unit
                     storage.”
                                                                                             • Field sampling sensing
                                                                                               gear
                                                                                             • Boat sampling sensing
                                                                                               gear




REPORT #13-0963                                                                                                 24
                                                                                               SWMP Equipment
  NERRS Facility                              Funding Justification
                                                                                                 Requested

 Narragansett Bay, RI   “During Hurricane Sandy, a total of four . . . multi-parameter        • 4 sondes with probes
                        datasondes were deployed at each of the Reserve’s long-term             and associated
                        monitoring station. . . As a result of intense wave activity,           accessories
                        mounting brackets holding some of these instruments in place
                        were broken off, sending them to the bottom where they were           • Weather station
                        repeatedly exposed [to] extreme impacts of waves and debris.            meteorological
                        These instruments, while robust, are not designed to sustain            temperature sensor
                        extreme and repeated impacts, thus compromising the integrity of      • Calibration standards
                        seals, circuit boards, and delicate optical sensors. Other              and miscellaneous lab
                        datasondes were repeatedly subject to intense impacts and               supplies
                        showed signs of water leakage upon retrieval. . . The Reserve will
                        procure a temperature sensor that was damaged during Hurricane
                        Sandy.”

 Waquoit Bay, MA        “. . . during Sandy, the Reserve’s SWMP system was fully              • 4 sondes with probes
                        operational. The Reserve’s observing and monitoring assets were         and associated
                        compromised as follows: four . . . sondes, exposed . . . (GOES)         accessories
                        Satlink system at our Menauhant SWMP station, exposed sensors
                        for our . . . meteorological station, exposed antenna for our . . .   • Meteorological and
                        (GOES) telemetry system. While all SWMP instruments and                 satellite
                        systems remained operational during the storm, it is assumed that       communications
                        these equipment and related infrastructure underwent significant        equipment including
                        stress from winds and waves. For example, we have since                 associated
                        experienced a series of problems (and associated downtime) with         infrastructure and
                        our telemetry system at our very storm-exposed Menauhant                sensors
                        station, and more frequent breakdowns of . . . sondes . . . sensors   • GOES satellite
                        and our . . . system weather sensors.”                                  telemetry (solar)
                                                                                                system




REPORT #13-0963                                                                                                25
                                                                                                 SWMP Equipment
  NERRS Facility                              Funding Justification
                                                                                                   Requested

 Wells, ME              “Effects of Hurricane Sandy to the Wells National Estuarine            • 4 sondes with probes
                        Research Reserve included high winds, increased tidal and storm          and associated
                        surges, and flooding which carried debris and storm/flood water          accessories
                        into and around our monitoring platforms which compromised the
                        Reserve’s observing and monitoring assets. These assets were           • 1 temp/RH probe
                        destroyed, lost, damaged, or compromised as follows: Four              • 1 chlorophyll probe
                        [sondes] and their associated sensors, two 15M . . . vented field
                        cables, one telemetry station including enclosure, antennas,           • 1 telemetry unit and
                        transmitter, transmission cable, battery, solar array, and               field cable
                        regulator.”
                        “Four aging [sondes] along with their associated sensors used to
                        collect required SWMP parameters . . . were deployed during
                        Hurricane Sandy and were compromised by increased
                        sedimentation in and around the sensors/connections and water
                        leakage into the bulkheads/connectors. Stations/platforms had
                        visibly shifted due to large likely ‘woody’ debris in the water
                        causing ‘impacts and shock’ to the units housed inside, and in one
                        case water intrusion into the bulkhead, causing
                        electrical/communications issues as well as 2 optical probes (Turb
                        and Chl-a) being damaged. Two 15M . . . vented field cables were
                        also in use during the storm, one of which is showing signs of
                        failure and corrosion at the connector. Our telemetry enclosure
                        was flooded leaving standing water in the box for 2 days until we
                        could access the site to assess damage. Corrosion is visible on the
                        . . . [t]ransmitter com ports, and the battery, regulator, and all
                        connections to the logger/yagi/etc., were exposed to salt water
                        intrusion. Our Temp and RH probes on our MET station are old
                        and no longer supported by the manufacturer, and, therefore, in
                        need of replacement. One of these probes was deployed during
                        the storm and high winds forced sand and debris into the
                        protective housing around the probe, which likely caused further
                        damage and wear on this already aging probe.”

 Source: https://grantsonline.rdc.noaa.gov, NERRS facilities’ applications for Hurricane Sandy funding under Funding
 Opportunity Number NOAA-NOS-OCRM-2013-2003687.




REPORT #13-0963                                                                                                  26
Appendix C: Questioned Costs for
Replacement SWMP Equipment126
                                                                                                Questioned SWMP
                               Inadequate Funding Justification and Reason for
      NERRS Facility                                                                             Equipment and
                                            Questioning Costs
                                                                                                    Amount

 Chesapeake Bay, MD      “Effects of Hurricane Sandy . . . included damage to the pier         • 1 sonde with probes
                         holding the System-wide Monitoring Program (SWMP) station at            and associated
                         Monie Bay, and high water levels compromising the functioning of        accessories
                         the sonde deployed in this site. . . [S]torm surge and associated
                         high water levels resulting from Hurricane Sandy caused severe        • 25-foot cable for
                         damage to the pier that physically supported the sonde and              sonde and telemetry
                         telemetry unit for the Monie Bay component of the Reserve,              unit
                         compromising both (the sonde and telemetry unit) as they were         • 1 telemetry unit and
                         deployed during the storm. Currently, the cable that connected          associated accessories
                         to both the sonde and telemetry unit is still trapped within the
                         damaged pier (under water).”                                          • Shipping
                         Reason for questioning costs: The facility did not claim the          • Total amount:
                         SWMP equipment was damaged.                                             $22,775

 Chesapeake Bay, VA      While no catastrophic failure was noted, water quality sondes         • 2 sondes with probes
                         were compromised at the two (2) most open water stations. . .           and associated
                         Water quality sondes at these stations incurred significant shock       accessories
                         impact stress with the station infrastructure leading to reduced
                         life expectancy.”                                                     • Total amount:
                                                                                                 $30,118
                         Reason for questioning costs: The facility did not claim the
                         SWMP equipment was damaged.

 Delaware                “Four aging . . . sondes were deployed during Hurricane Sandy (3      • 4 sondes with probes
                         in the St. Jones and 1 in Blackbird Creek) and incurred significant     and associated
                         stress to the units and probes; especially due to increased             accessories
                         sediment loads and currents. The water quality telemetry unit
                         became compromised due to an enclosure seal leak allowing             • 1 telemetry unit and
                         water leakage during heavy rain and winds. This leakage caused          field cable
                         severe corrosion to the communication port of the telemetry           • Other: audit costs
                         unit rendering laptop interface with the unit impossible.”
                                                                                               • Total amount:
                         Reason for inadequacy of request: With the exception of a               $53,151
                         barometric pressure sensor that “completely failed during
                         Hurricane Sandy,” the facility did not claim the SWMP equipment
                         was damaged. It is not clear if the “enclosure seal leak” was a
                         pre-existing condition, and we question whether the resulting
                         corrosion was a direct effect of Hurricane Sandy.




126
   By questioning these costs, OIG is not asserting all the requests for funding in this appendix are improper. A
questioned cost may be resolved, for example, by the NERRS facility providing more specific proof of damage to
the equipment.


REPORT #13-0963                                                                                                 27
                                                                                            Questioned SWMP
                         Inadequate Funding Justification and Reason for
   NERRS Facility                                                                            Equipment and
                                      Questioning Costs
                                                                                                Amount

 Great Bay, NH      “The sondes . . . are very old (all but two are at least eight years   • 4 sondes with C/T,
                    old and five are more than ten years old) and, we believe,               DO, pH, and turbidity
                    compromised in their ability to support near and real-time data in       sensors and wiper
                    future weather events such as occurred during Super-Storm
                    Sandy. . . The telemetry on at least one sonde was not working         • 3 adapters
                    directly after the storm hit; and although it is working now, we       • 1 underwater junction
                    believe that these systems were impacted by the storm and could          box and adapter ($695
                    not make it through another large event. The meteorological              each)
                    station is located in an open agricultural field and the high winds
                    caused some damage that needed to be repaired immediately,             • 4 batteries
                    and also caused wear and tear on the structure and equipment.”         • 2 temperature &
                    Reason for questioning costs: The application stated                     humidity sensors
                    inconsistent claims in different sections of the report. In the
                                                                                           • 1 barometer
                    “Budget and Budget Justification” section, the facility claimed the
                    sondes were “destroyed and/or damaged”; however, in the                • 1 optical DO sensor
                    “Introduction” section, quoted above, the facility only “believes”
                    the sondes were “compromised.” Similarly, with respect to the          • 1 guarded pH sensor
                    “Supplies,” the “Budget and Budget Justification” section states an    • Supplies
                    overall claim that the telemetry and weather station equipment
                    were “damaged” and that the “[c]ables and solar panels were            • Total amount:
                    among the items most damaged by the storm,” yet the                      $58,720
                    “Introduction” section states this equipment experienced “wear
                    and tear.” Furthermore, the “Budget and Budget Justification”
                    section notes the “met station had a crack in it, and the storm
                    worsened this crack and led us to replace a part of the tower this
                    year.” As such, this application appears to request Hurricane
                    Sandy funding to pay for repairs that were completed prior to the
                    award of the Hurricane Sandy funding.




REPORT #13-0963                                                                                            28
                                                                                            Questioned SWMP
                         Inadequate Funding Justification and Reason for
   NERRS Facility                                                                            Equipment and
                                      Questioning Costs
                                                                                                Amount

 Hudson River, NY   “The remaining three sondes and second telemetry station, which        • 5 10 m non-vented
                    were nearly a decade old, were further compromised by the                sondes
                    surge, increased suspended sediments, and floating debris.
                    Replacement sondes must be [a new model] as the original               • 5 smart wipers 7 CT
                    models are being phased out by the company. Therefore, two               sensors
                    additional sondes and two additional sets of probes must also be       • 7 pH sensors
                    acquired to provide backup equipment to maintain a continuous
                    record when other sondes require routine calibration and               • 7 optical DO sensors
                    repair.”                                                               • 7 turbidity sensors
                    “The program requires continual deployment at four monitoring
                                                                                           • 7 algae sensors
                    stations. Reserves should have at least six datasondes to provide
                    continuity of data collection and to provide time to recalibrate       • 3 SOA cables
                    and maintain equipment in the laboratory. . . The Reserve will
                    procure four . . . sondes to replace equipment compromised at          • 3 10 m DCP SDI-12
                    the four SWMP stations, two sondes to replace equipment at the           cables
                    two non-SWMP stations, and two additional sondes for                   • 1 SWMP telemetry
                    recalibration and maintenance for a total of eight sondes. Sensors       station and associated
                    will be acquired to fully equip all eight sondes plus two additional     structural components
                    sensors of each type for maintenance and repair.”                        and power supplies,
                    Reason for questioning costs: The facility claimed six sondes            basic SatLink2-V2
                    and two telemetry stations were deployed during the storm. Of          • Total amount:
                    this equipment, “one sonde was lost, and two sondes and one              $105,915
                    telemetry station sustained significant damage.” The application
                    did not claim the remaining three sondes were damaged. In
                    addition, the facility requested an additional two sondes for back-
                    up (for a total of eight) and ten sets of sonde sensors, which is
                    four more sets of sensors than were deployed during the storm.
                    (Note: OIG is aware NOAA requires back-up sondes to comply
                    with continuous data collection requirements; however, sondes
                    that were not damaged by Hurricane Sandy do not meet the plain
                    language requirement for funding under the Act and by their
                    nature are not replacements for sondes that were damaged.)
                    Also, the facility distinguished between SWMP sondes and
                    telemetry equipment and non-SWMP sondes and telemetry
                    equipment. Four sondes and one telemetry station were
                    designated SWMP and two sondes and one telemetry station
                    were designated as non-SWMP. Of the SWMP equipment, the
                    application only claimed one sonde was damaged. The remaining
                    three SWMP sondes and SWMP telemetry station were
                    described as compromised.




REPORT #13-0963                                                                                                29
                                                                                              Questioned SWMP
                             Inadequate Funding Justification and Reason for
   NERRS Facility                                                                              Equipment and
                                          Questioning Costs
                                                                                                  Amount

 Jacques Cousteau, NJ   “. . . [A] 27 foot coastal research vessel was destroyed including   • 4 sondes and
                        all electronics and engines, field sampling and sensing gear was       associated probes and
                        lost including hydrophones and acoustic equipment used for fish        accessories
                        tracking studies. . .”
                                                                                             • SWMP weather
                        “Regarding the JCNERR’s weather station, while the tower still         station and associated
                        stands, it was twisted and was deemed unstable during post-event       structural
                        inspection.”                                                           components, sensors,
                        Reason for questioning costs: The application is inconsistent          and cables
                        with respect to damage to the datasondes. In the “Introduction”      • Total amount:
                        section of the application, the facility noted “one datasonde was      $72,577
                        lost and three were damaged.” In the “Task Description” section
                        of the application, one datasonde is described as having “damage
                        due to leakage/corrosion,” and the telemetry station with one
                        datasonde was “wiped out.” The other two datasondes that were
                        deployed were not specified as “damaged.” Additionally, six
                        datasondes and associated probes and accessories are requested,
                        and the application only claims four datasondes were deployed
                        during Hurricane Sandy. (Please see note above regarding back-
                        up sondes.) Regarding the SWMP weather station, the application
                        did not claim any of the sensors or cables on the station were
                        “damaged.” The application only stated the tower was “twisted”
                        and “deemed unstable.” As such, we do not question the request
                        for funds to replace the tower structure. However, because the
                        application does not provide any information regarding the status
                        of the equipment on the tower, we must question whether this
                        equipment should be replaced with Hurricane Sandy funding.
                        (Note: The lack of detailed information in the application
                        regarding exactly what “observing system infrastructure” was lost
                        and/or on the coastal research vessel at the time of the storm,
                        prevented OIG from determining whether the items requested as
                        replacements are appropriate. OIG did not include these items in
                        its list of questioned SWMP equipment.)




REPORT #13-0963                                                                                               30
                                                                                             Questioned SWMP
                             Inadequate Funding Justification and Reason for
   NERRS Facility                                                                             Equipment and
                                          Questioning Costs
                                                                                                 Amount

 Narragansett Bay, RI   “During Hurricane Sandy, a total of four . . . multi-parameter      • 4 sondes
                        datasondes were deployed at each of the Reserve’s long-term
                        monitoring station. . . As a result of intense wave activity,       • 4 conductivity/temp
                        mounting brackets holding some of these instruments in place          sensors
                        were broken off, sending them to the bottom where they were         • 4 pH sensor
                        repeatedly exposed [to] extreme impacts of waves and debris.          assemblies
                        These instruments, while robust, are not designed to sustain
                        extreme and repeated impacts, thus compromising the integrity       • 4 DO sensors
                        of seals, circuit boards, and delicate optical sensors. Other       • 4 turbidity sensors
                        datasondes were repeatedly subject to intense impacts and
                        showed signs of water leakage upon retrieval.”                      • 4 central wipers
                        Reason for questioning costs: The facility did not directly         • 1 signal adapter
                        state the sondes were damaged, nor did it claim the SWMP
                        equipment did not work following the storm. The facility            • 4 anode kits
                        mentioned Hurricane Sandy’s effects on the sondes, but it did not   • 4 algae sensors
                        specify the damage to each sonde. Accordingly, OIG could not
                        verify which or how many sondes Hurricane Sandy actually            • 1 calibration standards
                        damaged.                                                              and miscellaneous lab
                                                                                              supplies
                                                                                            • Total amount:
                                                                                              $62,890




REPORT #13-0963                                                                                                  31
                                                                                                 Questioned SWMP
                               Inadequate Funding Justification and Reason for
   NERRS Facility                                                                                 Equipment and
                                            Questioning Costs
                                                                                                     Amount

 Waquoit Bay, MA         “The Reserve’s observing and monitoring assets were                   • 4 sondes with probes
                         compromised as follows: four . . . sondes, exposed . . . (GOES)         and associated
                         Satlink system at our Menauhant SWMP station, exposed sensors           sensors, cables and
                         for our . . . meteorological station, exposed antenna for our . . .     anti-fouling accessories
                         (GOES) telemetry system. While all SWMP instruments and
                         systems remained operational during the storm, it is assumed          • 1 meteorological and
                         that these equipment and related infrastructure underwent               satellite
                         significant stress from winds and waves. For example, we have           communications
                         since experienced a series of problems (and associated                  equipment including
                         downtime) with our telemetry system at our very storm-exposed           30 ft instrument
                         Menauhant station, and more frequent breakdowns of . . . sondes,        tower,
                         . . . sensors and our . . . system weather sensors.”                    temperature/RH,
                                                                                                 Wind, PAR,
                         Reason for questioning costs: The facility did not claim the            precipitation sensors,
                         items were damaged, and it only “assumed” that the equipment            Yagi antenna, and
                         “underwent significant stress.”                                         associated mounts and
                                                                                                 cables
                                                                                               • 1 GOES satellite
                                                                                                 telemetry (solar)
                                                                                                 system
                                                                                               • Total amount:
                                                                                                 $75,840

 Wells, ME               “Four aging [sondes] along with their associated sensors used to      • 2 sondes and probes
                         collect required SWMP parameters . . . were deployed during           • 2 vented sondes and
                         Hurricane Sandy and were compromised by increased                       probes
                         sedimentation in and around the sensors/connections and water
                         leakage into the bulkheads/connectors. Stations/platforms had         • 1 temp/RH probe
                         visibly shifted due to large likely ‘woody’ debris in the water
                                                                                               • 1 telemetry unit and
                         causing ‘impacts and shock’ to the units housed inside. . . Our
                                                                                                 field cable
                         Temp and RH probes on our MET station are old and no longer
                         supported by the manufacturer, and, therefore, in need of             • Total amount:
                         replacement. One of these probes was deployed during the                $68,214
                         storm and high winds forced sand and debris into the protective
                         housing around the probe, which likely caused further damage
                         and wear on this already aging probe.”
                         Reason for questioning costs: The facility only claimed two
                         optical probes were damaged. No specific claims of damage were
                         made with respect to the sondes. The application states only one
                         Temp/RH probe was deployed during Hurricane Sandy, but it
                         requests two replacement Temp/RH probes. The description of
                         the telemetry equipment did not specify damage caused by the
                         storm.

                               Total questioned amount:                                                $550,200

 Source: https://grantsonline.rdc.noaa.gov, NERRS facilities’ applications for Hurricane Sandy funding under Funding
 Opportunity Number NOAA-NOS-OCRM-2013-2003687 and OIG analysis.




REPORT #13-0963                                                                                                   32
Appendix D: Memorandum from OIG AIGI to
NOAA Acquisitions and Grants Office




REPORT #13-0963                           33
Appendix E: Table of Abbreviations

AIGI              Assistant Inspector General for Investigations

CFDA              Catalog of Federal Domestic Assistance

DOC               Department of Commerce

EO                Executive Order

ERD               Estuarine Reserves Division

FEMA              Federal Emergency Management Agency

GMD               Grants Management Division

IOOS              Integrated Ocean Observing System

IRF               Investigative Record Form

NERRS             National Estuarine Research Reserve System

NOAA              National Oceanic and Atmospheric Administration

NOS               National Ocean Service

OCRM              Office of Ocean and Coastal Resource Management

OGC               Office of General Counsel

OIG               Office of Inspector General

OMB               Office of Management and Budget

PPA               Program, Project, or Activity

SWMP              System-Wide Monitoring Program




REPORT #13-0963                                                     34
Appendix F: Contributors to the Report
OIG would like to acknowledge and thank the Office of Audit and Evaluation for providing
review of and assistance with Appendix C and the recommendations portion of this report.




REPORT #13-0963                                                                            35
